                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 112010005                                                                    Page 1 of 1



         During the investigation, we identified several issues pertaining to SBIR/STTR grants awarded to
         a small business. 1 Based on our review ofNSF and other federal agencies' grant documents, as
         well as financial records provided by the small business and other sources, we determined the
         issues were unsubstantiated; however, we reminded the PI2 ofthe importance of maintaining an
         accounting system capable of accurately tracking NSF award expenditures.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
